Credit Card Interest Rates and Fees
Suncoast Credit Union offers low rate credit card products with competitive terms. Your actual rate and term will be based on your personal credit
qualifications.

Suncoast Credit Union — Credit Card Interest Rates and Interest Charges
Annual Percentage Rate (APR) for Purchases

9.9% to 17.9% when you open your account, based on your creditworthiness.

APR for Balance Transfers

11.9% to 18.0% when you open your account, based on your creditworthiness.

APR for Cash Advances

11.9% to 18.0% when you open your account, based on your creditworthiness.

Penalty APR and When it Applies

Not Applicable

How to Avoid Paying Interest on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge you
any interest on purchases if you pay your entire balance by the due date each month.

Minimum Interest Charge

Not Applicable

For Credit Card Tips from the Consumer
Financial Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the
website of the Consumer Financial Protection Bureau
(http://www.consumerfinance.gov/learnmore/).

(#)

Suncoast Credit Union — Credit Card Fees
Annual Fee

None

Transaction Fees
Balance Transfer
Cash Advance
Foreign Transaction

None
None
None

Penalty Fees
Late Payment
Over-the-Credit Limit
Returned Payment

Up to $25
None
Up to $25

Other Fees
Card Replacement

$5

Suncoast Credit Union — Credit Card Agreement (/-/media/files/forms-and-applications/scu-platinum-credit-card-agreement.pdf)
How We Will Calculate Your Balance: We use a method called "average daily balancing (including new purchases)". See your account agreement for
more details.
The above information is accurate as of January 1, 2020. This information may have changed after that date. To find out what may have changed, call
us at 1-800-999-5887 or write to us at P.O. Box 11904, Tampa, FL 33680-1904.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights will be provided in your account agreement.
Military Lending Act Disclosures: Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an
annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: The costs associated with credit
insurance premiums, fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card
account).
(#)
Please call us 1-800-999-5887 extension 88335 to receive oral disclosures.

